         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report

Integrated Safety Management at
Sandia National Laboratories




DOE/IG-0866                                 May 2012
                                 Department of Energy
                                   Washington, DC 20585
                                         May 31, 2012



MEMORANDUM FOR THE SECRETARY

FROM:                   Gregory H. Friedman
                        Inspector General
SUBJECT:                INFORMATION: Audit Report on "Integrated Safety Management at
                        Sandia National Laboratories"

INTRODUCTION AND OBJECTIVE

Historically, safety has been one of the Department of Energy's top priorities. In 1996, the
Department established an Integrated Safety Management (ISM) system intended to prevent or
reduce occupational injuries, illnesses and accidents by providing safe and healthy workplaces.
As part of ISM, the Department requires its facility management contractors to define work
processes, enhance safety, and hold managers responsible for implementing ISM. Sandia
National Laboratories, with nearly 8,500 employees, are managed by a subsidiary of the
Lockheed Martin Corporation for the Department's National Nuclear Security Administration
(NNSA). Sandia's key mission is to ensure the safety, reliability and performance of the Nation's
nuclear weapons stockpile and, as such, its workforce performs a wide variety of tasks, some of
which place workers in hazardous conditions or near hazardous materials. For these reasons,
Sandia is specifically charged with operating an effective ISM system.

The Office of Inspector General began this audit with the objective of determining whether
Sandia had fully implemented ISM. However, it immediately became apparent that since 1997
and continuing into 2011, the Department had self-reported numerous deficiencies with Sandia's
ISM implementation and execution; and, that these problems often occurred at the line manager
level in the contractor's chain of command. Specifically, the Department found that Sandia had
not always identified, analyzed and documented hazards and controls necessary to ensure that
risks to workers were adequately managed. Since 1997, Sandia had taken numerous policy level
ISM corrective actions. Yet, in 2011, the Department and Sandia identified problems with ISM
at the line level similar to those identified in previous years. These included issues such as
inadequate hazard analysis and work being performed outside existing safety controls. Due to
the Department's emphasis on worker safety, including steps taken by the current senior
leadership, we revised our audit objective to determine the underlying reasons for continued
concerns with Sandia's ISM system.

RESULTS OF AUDIT

We found that Sandia had not fully addressed the root causes of weaknesses in ISM
implementation. Specifically, Sandia had not always ensured that line managers:

       Performed effective self-assessments to identify ISM weaknesses within its
       organizations. In fact, we observed that self-assessments performed by line managers
       often failed to identify ISM weaknesses that were subsequently identified by independent
       evaluations; and,
                                               2

       Were held accountable for ensuring implementation of ISM requirements. In particular,
       Sandia had not always included performance measures for correcting known ISM
       weaknesses in line managers' performance evaluation plans.

As to the underlying cause, we noted that Sandia had not always provided effective management
and oversight of line managers' implementation of ISM. Sandia had not developed specific
performance indicators to rate ISM line level implementation despite evaluation reports that
identified weaknesses in that area. Further, Sandia had not always provided the line managers
with adequate self-assessment tools and training. Finally, the Department's Sandia Site Office,
the entity charged with day-to-day management of the contract, had not established performance
goals sufficient to monitor and/or evaluate Sandia's progress in implementing needed ISM
corrective measures.

Underscoring the importance of line management's roles and responsibilities concerning safety,
in a December 5, 2011, memorandum on nuclear safety, the Department stated that line
managers have the authority and the responsibility for establishing, achieving and maintaining
stringent safety performance expectations and requirements. Improving Sandia's ISM system,
including performing effective self-assessments and holding line level managers accountable for
safety performance, should help reduce employee exposure to workplace injuries and illnesses.
This is not a mere theoretical concern. In 2010, several workers were potentially exposed to
beryllium at Sandia's Radioactive and Mixed Waste Management Facility. Sandia subsequently
chartered an independent investigation of the beryllium event that identified an inadequate
"…level of rigor in the execution of the [Facility] work planning and control processes," an
integral ISM component. To avoid similar situations, we made several recommendations
designed to improve ISM at Sandia.

MANAGEMENT REACTION

Management generally agreed with the report's findings and recommendations and indicated that
it will use them to drive continued improvement of NNSA's implementation of ISM.
Management stated that it has made improvements in establishing the framework for Work
Planning and Control (WP&C), including establishing quarterly Executive Management Reviews
intended for timely identification of issues for management action. Management also noted that
line organizations are leading an effort to integrate WP&C processes with Engineered Safety
principles. Finally, management noted that the extent to which line managers and Sandia
officials are working together for the effective implementation of WP&C processes is being
monitored and will be evaluated through Fiscal Year 2012 Performance Evaluation Plans.

Management's proposed and initiated corrective actions are responsive to our recommendations.
We appreciate management's recognition that continued improvement of NNSA's
implementation of ISM is needed and that corrective actions are underway. Management's
comments are included in Appendix 3.

Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Administrator, National Nuclear Security Administration
    Chief of Staff
REPORT ON INTEGRATED SAFETY MANAGEMENT AT SANDIA
NATIONAL LABORATORIES


TABLE OF
CONTENTS

Obstacles to Effective Implementation

Details of Finding .................................................................................................................... 1

Recommendations and Comments ........................................................................................... 7

Appendices

1. Objective, Scope and Methodology ................................................................................... 9

2. Related Reports ................................................................................................................ 10

3. Management Comments .................................................................................................. 11
INTEGRATED SAFETY MANAGEMENT AT SANDIA NATIONAL
LABORATORIES
OBSTACLES TO                        Since 1997, the Department of Energy (Department) has identified
EFFECTIVE                           numerous weaknesses in Sandia National Laboratories' (Sandia)
IMPLEMENTATION                      implementation of its Integrated Safety Management (ISM) system
                                    at the line management level – the level where hazardous work
                                    takes place. Specifically, Department reports in 1997, 2003, 2005
                                    and 2008 identified weaknesses including the inability to
                                    effectively analyze hazards and develop and implement
                                    appropriate hazard controls to minimize risks to the workers.
                                    While Sandia had taken numerous corrective actions over the past
                                    13 years, the Department continued to identify similar deficiencies
                                    associated with ISM in 2011, including issues such as inadequate
                                    hazard analysis and failure to perform work within controls.

                                    We found that Sandia had not fully addressed the root causes of
                                    weaknesses in its ISM implementation. Specifically, Sandia had
                                    not fully implemented ISM at the line level to help reduce or
                                    prevent occupational injuries, illnesses and accidental losses, and
                                    improve safety in the workplace. We identified two significant
                                    issues that we believe directly contributed to weaknesses in
                                    Sandia's implementation efforts. Particularly, Sandia had not
                                    always ensured that line managers:

                                             Performed effective self-assessments to identify ISM
                                             weaknesses within its organizations; and,

                                             Were held accountable for ensuring implementation of ISM
                                             requirements.

                                                                  Self-Assessments

                                    Sandia's line level managers often did not effectively perform self-
                                    assessments of their organizations, which are required activities
                                    designed to identify weaknesses in ISM implementation.
                                    Department Order 226.1A, Implementation of Department of
                                    Energy Oversight Policy, requires contractors to perform self-
                                    assessments to ensure that safety management system (i.e., ISM)
                                    deficiencies are being self-identified. The self-assessments are to
                                    focus on hands-on work and the implementation of administrative
                                    processes, and should involve workers, supervisors and managers
                                    to encourage the identification and resolution of deficiencies at the
                                    lowest level practicable1. However, we found that the self-
                                    assessments performed were not comprehensive enough to identify

1
  On April 25, 2011, the Department replaced DOE Order 226.1A with DOE Order 226.1B. The revised Order
contained similar assurances regarding ISM. Specifically, the Order requires contractors to develop rigorous, risk-
informed, and credible self-assessments to help ensure work performance meets the applicable requirements for
environment, safety and health.

Page 1                                                                                        Details of Finding
         deficiencies. Our finding in this area is reinforced by the
         consistent identification of weaknesses by oversight organizations
         that were not identified by line officials during the self-
         assessments.

         In particular, we reviewed the 240 self-assessments of ISM
         implementation performed by Sandia line managers since 2006 and
         determined that, in most cases, the managers had not self-
         identified findings and weaknesses. Specifically, we found that
         only 3 of the 240 self-assessments identified "significant" findings
         that required a formal corrective action plan. In contrast, since
         2005, both the Department and Sandia's Environment, Safety and
         Health and Emergency Management Center (ES&H) have
         identified numerous systemic, significant and repetitive findings on
         ISM implementation at the line level. For example, we compared
         the results of a 2010 assessment of 23 line organizations performed
         by Sandia's ES&H to the results of self-assessments performed by
         the organizations' line managers. We found that ES&H identified
         46 weaknesses in comparison to 2 ISM weaknesses identified by
         line managers only 7 months earlier. While ES&H was able to
         identify line level implementation issues with ISM and develop a
         formal corrective action plan, the majority of Sandia's line level
         managers did not identify ISM weaknesses in their self-
         assessments.

         We also noted that the April 2010 National Nuclear Security
         Administration (NNSA) Validation Review of the Sandia National
         Laboratories Contractor Assurance System Self Assessment, found
         that Sandia did not have a self-assessment process to ensure that
         workers performed job hazard walk-downs, pre-job briefs and
         post-job reviews, which are key elements of an effective ISM
         system. The Contractor Assurance System (CAS) is designed to
         provide feedback to Sandia and NNSA on the effectiveness of
         contractor activities and is a basis for identifying needed
         improvements in areas such as ISM. To help ensure effective
         implementation of safety management systems such as ISM,
         Department Order 226.1A requires that all NNSA contractors
         develop a rigorous and credible assessment program as part of the
         CAS. In August 2011, Sandia performed an analysis of problems
         identified by the validation review findings and corrective actions
         have been initiated.

                          Line Management Accountability

         Sandia had also not held its line level managers accountable for
         ensuring the effective implementation of ISM at the line level. As
         specified in its Corporate Procedure, HR 100.3.8 Manage and

Page 2                                                   Details of Finding
         Evaluate Employee Performance, Sandia uses performance
         evaluations to measure employee performance by recognizing both
         positive and negative significant events that occur throughout the
         year, including adherence to corporate policies such as ISM.
         Sandia identified safety as a specific performance objective for
         every employee's performance evaluation.

         However, we found Sandia did not always ensure line managers'
         performance plans and evaluations held managers accountable for
         correcting identified ISM weaknesses. We selected a sample of
         performance evaluations for line level managers whose
         organizations had findings on ISM implementation weaknesses
         identified by ES&H in its final Fiscal Year (FY) 2010 report to
         determine if the managers were held accountable for implementing
         Sandia's ISM. Our sample of 10 manager performance plans and
         evaluations disclosed that, although the majority of performance
         plans included performance measures related to ISM
         implementation, the performance evaluations for 8 of the managers
         did not address problems in correcting ISM weaknesses known to
         exist within the organizations. In fact, the managers generally
         received no comments, marks or ratings regarding effectiveness in
         safety-related areas. For example, one of the evaluations failed to
         mention 11 weaknesses identified by ES&H associated with an
         organization that conducts hazardous operations. One of the
         weaknesses involved the organization not identifying and
         controlling hazards at the line level.

         Additionally, our analysis of Sandia's corrective actions from 1997
         through 2011 showed that corrective actions were repeatedly
         focused on revising processes and procedures, and ineffective in
         preventing recurrence of ISM implementation deficiencies at the
         line level due to line managers not being held accountable for
         implementing the revisions. For example, the Department's 2008
         safety report stated that Sandia revised the ES&H Manual to
         clarify safety requirements in order to address the problem of
         workers performing inadequate ladder inspections and being
         unfamiliar with ladder safety requirements, but did not address the
         performance deficiencies of the workers. In 2010, Sandia's ES&H
         corrective action effectiveness review of the finding identified in
         the Department's 2008 safety report determined that the majority of
         Sandia's line level organizations had not: (1) met corporate ISM
         line level requirements and/or fully implemented ISM
         requirements; (2) identified and controlled hazards at the line work
         level; (3) implemented Technical Work Document requirements
         that integrate safety into line level work processes; or, (4)
         effectively implemented a feedback and improvement process,
         including management oversight of line level work.

Page 3                                                   Details of Finding
Management and   We concluded that the Sandia Site Office (Site Office) and Sandia
Oversight        had not always provided effective management and oversight of
                 line managers' implementation of ISM. Specifically, neither the
                 Site Office nor Sandia had developed specific performance
                 indicators to rate ISM line level implementation despite evaluation
                 reports that identified ISM line level implementation weaknesses.
                 Further, Sandia had not always provided effective oversight of line
                 managers' implementation and had not provided adequate self-
                 assessment tools and training to line managers.

                             Line Managers' Performance and Oversight

                 Sandia implements ISM at the line level through a process called
                 Work Planning and Control (WP&C). Our review of Sandia's
                 Performance Evaluation Plans for 2005 through 2012 disclosed
                 that prior to 2010; the Site Office had not developed specific
                 performance indicators to rate WP&C line level implementation.
                 In its FY 2009 Performance Evaluation Report (PER), the Site
                 Office stated that, while Sandia had set the stage to establish
                 effective activity level hazard identification, analysis and control
                 with the issuance of corporate WP&C processes and procedures,
                 line level implementation of WP&C needed to be improved.
                 However, in subsequent years, the Site Office did not develop
                 specific performance indicators to rate WP&C line level
                 implementation. Instead, the Site Office developed a performance
                 indicator in 2010 that continued to focus only on Sandia's WP&C
                 process development.

                 During 2010, the Site Office and Sandia implemented a new
                 system-based oversight model for all non-nuclear and medium risk
                 work called the Governance Approach. As part of this approach,
                 the Site Office developed a performance measure beginning with
                 the 4th quarter of FY 2010 to hold Sandia accountable for
                 implementing ES&H requirements at the line level, which would
                 include WP&C. The new Governance Approach requires Sandia
                 to be more accountable in the development of the specific
                 performance indicators that would be used to measure WP&C line
                 level implementation. As of January 2012, however, Sandia had
                 not developed specific indicators despite the fact that in 2010
                 Sandia's ES&H reported that 61 percent of line organizations
                 assessed had not identified and controlled safety hazards at the line
                 level as required by the WP&C process.

                 To its credit, Sandia had established performance measures to
                 evaluate overall worker safety. However, the worker safety
                 performance measures were, for the most part, lagging indicators

Page 4                                                            Details of Finding
         such as the Total Recordable Case Rate (TRCR) that measures
         injuries reported in the past to help prevent future incidents.
         Further, lagging performance indicators, such as the TRCR, are not
         the best measures to assess and ensure workplace safety, the
         primary objective of an effective WP&C process. According to a
         majority staff report by the Committee on Education and Labor of
         the U.S. House of Representatives (Hidden Tragedy:
         Underreporting of Workplace Injuries and Illnesses), leading
         safety indicators, such as "near miss" reports and audit results, are
         much better predictors of safety performance.

         Our review identified multiple leading indicators available to the
         Site Office for measuring Sandia's continuous improvement to
         ISM. For example, one leading indicator is Sandia's ISM
         effectiveness review results that have identified areas that need
         improvement, including WP&C implementation at the line level.
         Other leading indicators available to the Site Office include
         Sandia's Internal Audit Reports and Site Office reviews. Although
         the Site Office included a discussion of leading indicators in the
         FY 2010 PER narrative and stated that WP&C implementation
         results for some line organizations were less than fully effective, it
         did not use the indicators as specific performance measures to
         evaluate Sandia performance. To its credit, in FY 2011 the Site
         Office identified an opportunity for Sandia to improve safety
         operations by teaming with line level management to identify
         measures of line implementation of ES&H requirements, including
         WP&C. Site Office and Sandia officials stated that WP&C line
         level indicators will be developed during 2012.

                                   Sandia Oversight

         We also noted that Sandia had not always provided effective
         oversight of line managers' implementation of ISM. Specifically,
         we found that problems identified by Sandia's safety oversight
         organization were not properly reported or addressed. A draft
         2010 corrective action validation report identified problems with
         line management's ability to perform self-assessments as a primary
         reason for the ISM line level implementation difficulties. A
         Sandia official told us that Sandia removed this finding from the
         report, as line management assessment performance was outside
         the purview of ES&H. However, we concluded that without
         effective line level self-assessments, Sandia's ability to ensure ISM
         implementation was limited.




Page 5                                                     Details of Finding
                         Managers' Self-Assessment Tools

         Finally, we found that line managers' ability to self-identify
         WP&C weaknesses was limited by inadequate assessment tools
         and training. We compared assessment tools used by Sandia's line
         managers to identify WP&C weaknesses with those used by
         Sandia's ES&H group and found a significant difference in the
         level of detail for assessing WP&C implementation. For example,
         a checklist was provided to Sandia's line managers to assess their
         organizations' implementation of WP&C that consisted of a series
         of questions to help measure the implementation of the five core
         functions of ISM. With regard to analyzing hazards, the checklist
         had a single question with no criteria or assessment methodology.
         The question required managers to determine whether their
         procedures effectively addressed the hazard analysis process at the
         line level and if the procedures were properly implemented.
         Sandia's internal self-assessment tracking system did not show
         whether line level managers used this checklist in their
         assessments. As noted previously, managers generally found no
         significant issues with WP&C implementation of hazards analysis
         in the 240 line level self-assessments performed by Sandia line
         managers since 2006.

         In contrast to the checklist provided to Sandia's line managers, the
         assessment tool used by ES&H for hazard analysis identified seven
         criteria with multiple review methods that included, among other
         things, reviewing technical work documents, interviewing work
         planners, observing work activities and observing hazard analysis
         team meetings. By using a more rigorous and comprehensive
         assessment tool, an ES&H contractor in 2010 was able to
         determine that 61 percent of line organizations assessed had not
         identified and controlled hazards at the line level.

         Finally, we noted that Sandia does not require self-assessment
         training for line level managers. Although Sandia developed three
         web-based training courses as part of the corrective actions to
         address the 2008 Department report finding that self-assessments
         were not effective, it did not require line managers to take the
         courses. According to ES&H management, there are at least 250
         line managers that should perform self-assessments; however, our
         review found that only 45 managers (18 percent) had taken the
         assessment training. NNSA officials stated that the process to
         improve self-assessments has been an on-going effort and that
         Sandia continues to mature its self-assessment program as
         evidenced by implementing an Assurance Improvement Plan in
         July 2011, efforts that we believe are essential to address the
         continuing problems that we observed.

Page 6                                                   Details of Finding
Increased Risk to   Until Sandia effectively implements ISM requirements at the line
Workers             level by performing effective self-assessments, holds line
                    managers accountable and focuses corrective actions at the line
                    level, there is increased risk that workers can suffer from illnesses
                    and injuries that could be avoided. For example, in 2010, several
                    workers were potentially exposed to beryllium at Sandia's
                    Radioactive and Mixed Waste Management Facility (RMWMF).
                    Sandia chartered an independent investigation of the beryllium
                    event that identified an inadequate "…level of rigor in the
                    execution of RMWMF work planning and control processes." The
                    analysis also stated that line level manager self-assessments were
                    not of the rigor to be effective in identifying discrepancies, issues
                    and weaknesses to enable effective corrective actions and
                    continuous improvement. In addition, in 2011, Sandia experienced
                    two accidents involving lithium, including one that resulted in an
                    injury to a worker. The occurrence report listed weaknesses in
                    analyzing hazards and developing hazard controls as contributing
                    factors in the accidents. Without effective self-assessments Sandia
                    will continue to experience problems in identifying weaknesses
                    and deficiencies in its ISM implementation. In addition, by not
                    holding line managers accountable for correcting ISM WP&C
                    findings, Sandia denies itself the opportunity to provide proactive
                    and constructive feedback to prevent or correct issues and
                    problems before becoming major occurrences. Underscoring the
                    importance of line management's roles and responsibilities
                    concerning safety, the Secretary of Energy stated, in a December 5,
                    2011, memorandum on nuclear safety, that line managers have the
                    authority and the responsibility for establishing, achieving and
                    maintaining stringent safety performance expectations and
                    requirements.

                    The Governance Approach relies heavily on obtaining reliable
                    information from the CAS and leveraging that information to make
                    informed decisions on oversight. Past reviews indicate that Sandia
                    has difficulty identifying ISM deficiencies through line level self-
                    assessments, a key element of an effective CAS. Thus, this
                    problem could also impact the Site Office's ability to perform its
                    oversight function using the Governance Approach.

RECOMMENDATIONS     To improve the effectiveness of implementation of future ISM
                    corrective actions at the line level and focus NNSA oversight on
                    WP&C implementation, we recommend that the Manager, Sandia
                    Site Office:

                       1. Ensure performance measures used to evaluate Sandia's
                          ES&H performance include line level leading indicators
                          (e.g., near miss reports and audit/assessment results, such
                          as the Sandia ISM system effectiveness review).

Page 7                                           Recommendations and Comments
                  To promote effective ISM line level implementation, we further
                  recommend that the Manager, Sandia Site Office, direct Sandia to:

                       2. Continue to ensure line management and policy level
                          officials work together to develop a comprehensive self-
                          assessment program for WP&C, integrate WP&C with
                          Engineered Safety concepts, and communicate issues at
                          various management reviews;

                       3. Require personnel who perform organizational self-
                          assessments and their managers to be trained in planning,
                          performing and documenting self-assessments, and in
                          developing corrective actions;

                       4. Ensure that WP&C corrective actions are directed to the
                          level of management responsible for correcting
                          implementation deficiencies; and,

                       5. Ensure that managers are accountable for line level
                          implementation of the WP&C requirements by establishing
                          and documenting specific accountability activities for line
                          managers, and amending Sandia's policies and procedures
                          to clearly identify the requirements of line level managers
                          for WP&C implementation, as appropriate.

MANAGEMENT REACTION       Management generally agreed with the report's findings
AND AUDITOR COMMENTS      and recommendations and stated that it will use them to
                          drive continued improvement of NNSA's implementation
                          of ISM. Management stated that it has made improvements
                          in establishing the framework for WP&C, including
                          establishing quarterly Executive Management Reviews
                          intended for timely identification of issues for management
                          action. Management also noted that line organizations are
                          leading an effort to integrate WP&C processes with
                          Engineered Safety principles and that the FY 2012
                          Performance Evaluation Plans are monitoring the extent of
                          line managers and Sandia officials working together for the
                          effective implementation of WP&C processes.

                          Management's proposed and initiated corrective actions are
                          responsive to our recommendations. We appreciate
                          management's recognition that continued improvement of
                          NNSA's implementation of ISM is needed and that
                          corrective actions are underway. Management's comments
                          are included in Appendix 3.




Page 8                                         Recommendations and Comments
Appendix 1

OBJECTIVE     To determine the reasons that Sandia National Laboratories
              (Sandia) was not effectively implementing Integrated Safety
              Management (ISM) at the line management level.


SCOPE         The audit was performed between June 2010 and May 2012,
              at Sandia, the Sandia Site Office (Site Office) and the National
              Nuclear Security Administration (NNSA) Albuquerque Complex
              (formerly NNSA Service Center), in Albuquerque, NM. Our scope
              encompassed Sandia's current ISM system.

METHODOLOGY   To accomplish our objective, we:

                     Reviewed regulations, policies and procedures relevant to
                     the Department of Energy's (Department) ISM;

                     Reviewed Sandia's guidance, policies and procedures;

                     Held discussions with Site Office and Sandia officials;

                     Analyzed the Total Recordable Case Rate; and,

                     Reviewed related reports on Sandia's ISM and associated
                     corrective action plans.

              We conducted this performance audit in accordance with generally
              accepted Government auditing standards. Those standards require
              that we plan and perform the audit to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our findings and
              conclusions based on our audit objectives. We believe that the
              evidence obtained provides a reasonable basis for our findings and
              conclusions based on our audit objective. Accordingly, we
              assessed significant internal controls and compliance with laws and
              regulations necessary to satisfy the audit objective. In particular,
              we assessed the Department's implementation of the GPRA
              Modernization Act of 2010 and determined that it had established
              performance measures for the ISM system. Because our review
              was limited, it would not necessarily have disclosed all internal
              control deficiencies that may have existed at the time of our audit.
              We did not rely upon computer-processed data to accomplish our
              audit objective.

              Management waived an exit conference.




Page 9                                    Objective, Scope and Methodology
Appendix 2

                                   RELATED REPORTS

Office of Inspector General

      Audit Report on Implementation of Integrated Safety Management at Lawrence
      Livermore National Laboratory (DOE/IG-0797, July 2008). The report concluded that
      Lawrence Livermore National Laboratory (Livermore) had not fully implemented an
      Integrated Safety Management system. The Office of Inspector General examined three
      safety incidents and found that Livermore had not always: (1) developed and
      implemented controls to eliminate hazards; (2) performed work within defined controls;
      and, (3) provided feedback to managers about identified hazards or aggressively pursued
      continuous improvement in safety.

U.S. Government Accountability Office

      Report on Actions Needed to Determine the Effectiveness of Safety Improvement Efforts
      at NNSA's Weapons Laboratories (GAO-08-73, October 2007). The U.S. Government
      Accountability Office (GAO) found that nuclear weapons laboratories have experienced
      persistent safety problems, stemming largely from longstanding management
      weaknesses. From 2000 to 2007, nearly 60 serious accidents or near misses had
      occurred, including worker exposure to radiation, inhalation of toxic vapors and electrical
      shocks. A review of nearly 100 reports issued since 2000 disclosed that the contributing
      factors to these safety problems generally fall into three key areas: (1) relatively lax
      laboratory attitudes toward safety procedures; (2) weaknesses in identifying safety
      problems and taking appropriate corrective actions; and, (3) inadequate oversight by
      National Nuclear Security Administration site offices.

      Report on Department of Energy Needs to Strengthen Its Independent Oversight of
      Nuclear Facilities and Operations (GAO-09-61, October 2008) The report concluded
      that the Department of Energy's Office of Health, Safety and Security falls short of fully
      meeting GAO's elements of effective independent oversight of nuclear safety:
      independence; technical expertise; ability to perform reviews and have findings
      effectively addressed; enforcement; and, public access to facility information.
.




Page 10                                                                        Related Reports
Appendix 3

             MANAGEMENT COMMENTS




Page 11                            Management Comments
Appendix 3 (continued)




Page 12                  Management Comments
Appendix 3 (continued)




                         IG Report No. DOE/IG-08XX




Page 13                    Management Comments
                                                                    IG Report No. DOE/IG-0866

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

     1.   What additional background information about the selection, scheduling, scope, or
          procedures of the audit or inspection would have been helpful to the reader in
          understanding this report?

     2.   What additional information related to findings and recommendations could have been
          included in the report to assist management in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have taken on the issues
          discussed in this report which would have been helpful?

     5.   Please include your name and telephone number so that we may contact you should
          we have any questions about your comments.

Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
